HHS/OIG-Audit--"Audit of the Personnel and Payroll Functions of the Thrift Savings Plan in the Office of the Assistant Secretary for Personnel Administration, (A-17-92-00014)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Personnel and Payroll Functions of the Thrift Savings Plan
in the Office of the Assistant Secretary for Personnel Administration,"
(A-17-92-00014)
June 7, 1994
Complete Text of Report is available in PDF format
(1.16 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our audit of the personnel and payroll
functions of the Thrift Savings Plan (TSP) in the Department of Health and Human
Services' Office of the Assistant Secretary for Personnel Administration (ASPER).
Nothing came to our attention in the course of our audit to indicate that ASPER
was not in compliance with the requirements of the Federal Employees' Retirement
System Act of 1986. However, we found that the accounting data containing the
recorded amounts of TSP contributions is not periodically reconciled with the
underlying source data; reconciliations of TSP cash account balances with the
Department of the Treasury cash reports are not being performed each month;
the policy for resolving lost TSP earnings is costly and inefficient; eligible
employees are not personally notified when they may begin to participate in
TSP; and educational programs to explain TSP are not routinely conducted.